Office of Inspector General

        SEMIANNUAL 

         REPORT TO 

         CONGRESS 


For the Period October 1, 2009 through March 31, 2010



                Report No. 42




  “Democracy demands wisdom and vision in its citizens”
National Foundation on the Arts and Humanities Act of 1965
                    THE OFFICE OF INSPECTOR GENERAL 


                                 serves American taxpayers 

                           by investigating reports of waste, fraud, 

                        mismanagement, abuse, integrity violations or 

                         unethical conduct involving Federal funds. 




                               To report any suspected activity 

                     involving NEH programs, operations, or employees 


                                    Call the OIG Hotline

                                      1 (877) 786-7598



                                      Mailing Address

                      Office of Inspector General — Hotline
                     National Endowment for the Humanities
                          1100 Pennsylvania Ave. N.W., Room 419
                                 Washington, DC 20506


                                            Fax

                                       (202) 606-8329


                                  Electronic Mail Hotline

                                        oig@neh.gov




Government employees are protected from reprisal

Caller can remain anonymous

Information is confidential
  NATIONAL                                                                OFFICE OF INSPECTOR GENERAL
  ENDOWMENT                                                               1100 PENNSYLVANIA AVE., NW
  FOR THE                                                                 WASHINGTON, D.C. 20506
  HUMANITIES                                                              ROOM 419
                                                                          TELEPHONE(202) 606-8350
                                                                          FACSIMILE (202) 606-8329
                                                                          1-(877) 786-7598 (HOTLINE)
                                                                          E-mail oig@neh.gov

                                        April 30, 2010

Honorable James Leach
Chairman
National Endowment for the Humanities
Washington, DC 20506

Dear Chairman Leach:

I am pleased to provide you with the Office of Inspector General’s Semiannual Report to
Congress for the first half of the fiscal year 2010. The report is submitted in accordance with
the Inspector General Act of 1978, as amended. Section 5 of the Act requires that you sub-
mit this report, with your Report of Final Action, to the appropriate committee or subcom-
mittee of the Congress within 30 days of its receipt. The report provides a summary of the
activities of the OIG during the six-month period ended March 31, 2010.

During the current reporting period, we completed three internal reviews. The annual audit
of the agency’s financial statements was also completed during the current reporting period.
External effort consisted of one limited audit, one preaward survey, one overhead rate desk
review, and review of 68 OMB Circular A-133 audit reports.

In our investigations program, one matter was open as of the beginning of the reporting
period. We received six “Hotline” contacts during the period, and only one remains open at
March 31, 2010.

We are continuing our outreach effort wherein we distribute guidance to recipients of NEH
grants that would assist in their efforts to preclude unfavorable outcomes should their grants
be selected for audit. This initiative is directed towards all non-profit grantees of the NEH.

I appreciate your support and look forward to working with you and all agency staff to fur-
ther our common purpose of assuring the effectiveness, efficiency and integrity of NEH’s
vital contributions to the humanities in the United States.

                                             Sincerely,



                                             Sheldon L. Bernstein
                                             Inspector General
                                           TABLE OF CONTENTS 



LETTER TO THE CHAIRMAN 


MESSAGE FROM THE INSPECTOR GENERAL………………………………………………                                                                             1


THE NATIONAL ENDOWMENT FOR THE HUMANITIES…… ...........................................                                          2


THE OFFICE OF INSPECTOR GENERAL ..........................................................................                       2


AUDIT AND REVIEW ACTIVITIES ......................................................................................               3


INVESTIGATIVE ACTIVITIES ……………………………………………………………………                                                                              8


OTHER ACTIVITIES.............................................................................................................   10 


PRIOR AUDIT REPORTS UNRESOLVED……………………………………………………..                                                                            12 


TABLE I - REPORTING REQUIREMENTS………………………………………………….....                                                                        13     


TABLE II - INSPECTOR GENERAL-ISSUED REPORTS....................................................                                 14 

WITH QUESTIONED COSTS 


TABLE III - INSPECTOR GENERAL-ISSUED REPORTS WITH ........................................                                      14 

RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


GLOSSARY OF AUDIT TERMINOLOGY ............................................................................                      15     

                            MESSAGE FROM THE INSPECTOR GENERAL


         Over the past several years, our workload has constantly increased in volume and complexity and, as a
         consequence, OIG oversight of the Endowment’s grantees is limited.

         The OIG is responsible for engaging and reviewing the work of an independent public accountant that con-
         ducts the annual audit of the NEH financial statements. The audit is required by the Accountability of Tax
         Dollars Act of 2002, and applies to many small agencies including the Endowment. The Federal Informa-
         tion Security Management Act (FISMA) review has been performed for several years as required. Each
         year the Office of Management and Budget (OMB) issues guidance for the review. The National Institute
         for Standards and Technology (NIST) Computer Security Division issues publications that the agency is
         responsible for implementing and the OIG is responsible for reviewing the agency’s implementation. The
         Government Accountability Office and the Council of Inspectors General on Integrity and Efficiency peri-
         odically update guidance on auditing, inspections and reviews, and investigations. Collectively, these re-
         sponsibilities increase the burden on the OIG.

         OMB Circular A-133, Audits of States, Local Governments and Non-Profit Organizations, issued pursuant
         to the Single Audit Act of 1984, (as amended), sets forth audit guidance applicable to the expenditure of
         Federal awards by non-Federal entities. The threshold for an audit is the expenditure of $500,000 or more
         in a fiscal year. Consequently, the threshold level eliminates audits for a significant number of non-profit
         organizations that receive grants from the Endowment, including approximately 17 of the 56 state humani-
         ties councils. The President’s Council on Integrity and Efficiency issued a report on the single audits. The
         report disclosed that a majority of the work performed on OMB Circular A-133 audits did not meet profes-
         sional standards. Thus, besides having fewer NEH grantees subject to the OMB A-133 audit, the reports
         issued are not totally reliable. This clearly indicates that the OIG needs more resources to provide ade-
         quate coverage of grantees. In addition, monitoring by program offices is not, in our opinion, sufficient.

         Another impact on our oversight of grantees is internal and grantee investigations. Opening an investiga-
         tion has a significant impact on our audit plan because we do not have staff dedicated to investigation
         work. Therefore, it becomes necessary to reassign audit staff trained in investigation work to perform the
         investigation. With significant fluctuations on a yearly basis, it is difficult to be proactive concerning inves-
         tigations or realistically budget staff time for this effort.

         During November 2009, we were very pleased to have hired an auditor. This individual is a licensed CPA
         with more than 10 years of non-profit accounting and auditing experience. In our next budget request, we
         will be providing you with information concerning our need for another staff person.

         In accordance with the Inspector General Act of 2008, Public Law 110-409, we have signed a service
         agreement with the United States Treasury Inspector General for Tax Administration’s General Counsel
         for fiscal year 2010. They are providing legal counsel for the NEH OIG.




NEH OIG Semiannual Report                                       1                                                  March 31, 2010
             THE NATIONAL ENDOWMENT FOR THE HUMANITIES
      In order to promote progress and scholarship in the humanities and the arts in the United States, Con-
      gress enacted the National Foundation on the Arts and the Humanities Act of 1965. This Act estab-
      lished the National Endowment for the Humanities as an independent grant-making agency of the Fed-
      eral government to support research, education, and public programs in the humanities. Grants are
      made through four divisions - Research Programs, Education Programs, Preservation and Access, and
      Public Programs -- and three offices -- Challenge Grants, Federal-State Partnership, and Digital Hu-
      manities. The divisions and offices also administer the We the People program.

      The NEH has launched a new initiative ~ Bridging Cultures. The initiative is designed to bridge both
      space and time to help American citizens gain a deeper understanding of their own varied cultural heri-
      tage, as well as the history and culture of other nations. The initiative encourages the exploration of
      ways in which cultures from around the globe, as well as the myriad subcultures within America’s bor-
      ders, have influenced American society.

      The Act that established the National Endowment for the Humanities says "The term 'humanities' in-
      cludes, but is not limited to, the study of the following: language, both modern and classical; linguistics;
      literature; history; jurisprudence; philosophy; archaeology; comparative religion; ethics; the history, criti-
      cism, and theory of the arts; those aspects of social sciences which have humanistic content and em-
      ploy humanistic methods; and the study and application of the humanities to the human environment
      with particular attention to reflecting our diverse heritage, traditions, and history and to the relevance of
      the humanities to the current conditions of national life."




                            THE OFFICE OF INSPECTOR GENERAL
       The NEH Office of Inspector General was established April 9, 1989, in accordance with the Inspector
       General Act Amendment of 1988, (Public Law 100-504). In this legislation, Congress established Of-
       fices of Inspector General in several departments and in thirty-three agencies, including the NEH. The
       NEH Inspector General (IG) is appointed by the Chairman. The independence of the IG is an impor-
       tant aspect of the Act. For example, the IG: cannot be prevented from initiating, carrying out, or com-
       pleting an audit or investigation, or from issuing any subpoena; has access to all records of the
       agency; reports directly to the Chairman, and can only be removed by the Chairman, who must give
       Congress 30 days notice of the reasons for the removal; reports directly to Congress.

       The Act states that the Office of Inspector General is responsible for (1) conducting audits and investi-
       gations; (2) reviewing legislation; (3) recommending policies to promote efficiency and effectiveness;
       and (4) preventing and detecting fraud, waste, and abuse in the operations of the agency. The In-
       spector General is also responsible for keeping the Chairman and Congress fully and currently in-
       formed of problems and deficiencies in the programs and operations.

       The OIG staff consists of the Inspector General, Deputy Inspector General, two auditors, and a secre-
       tary. The OIG has a Memorandum of Understanding with the United States Treasury Inspector Gen-
       eral for Tax Administration detailing the procedures for the OIG to be provided legal services. Investi-
       gations are handled by the Inspector General and an auditor.




NEH OIG Semiannual Report                                      2                                                 March 31, 2010
                                     AUDIT AND REVIEW ACTIVITIES 


                                             LIST OF REPORTS ISSUED 

       This office is responsible for external and internal audits. External efforts include on-site grant audits, limited
       scope desk reviews, pre-award accounting system surveys, review of OMB Circular A-133 audit reports,
       and on-site quality control reviews of CPA workpapers. Internal efforts consist of audits, inspections, and
       reviews/evaluations of NEH administrative, programmatic, and financial operations. The OIG is also respon-
       sible for monitoring the work of the independent public accountant that conducts the annual audit of the NEH
       financial statements as required by the Accountability of Tax Dollars Act of 2002, and examining the audit
       workpapers and reports to ensure compliance with applicable requirements.

       Following is a list of reports issued by the OIG during this reporting period. The Inspector General Act of
       1978, as amended, requires us to report on the "Dollar Value of Recommendations that Funds Be Put to
       Better Use" and the "Total Dollar Value of Questioned Costs" (including a separate category for the “Dollar
       Value of Unsupported Costs”), [see Table II].


                                                                     Report Number                   Date Issued

      INTERNAL AUDITS/REVIEWS

      FYE September 30, 2009 Consolidated Review of                  OIG-10-01 (Internal Review) 11/04/09
      The Federal Managers’ Financial Integrity Act

      Federal Information Security Act ~ Reporting                   OIG-10-02 (IR)                  11/19/09
      Document to the Office of Management and Budget

      Final Audit Report ~ Financial Statement Audit                 Transmittal Memorandum          11/19/09
      FY 2009

      Federal Information Security Management Act Review~            OIG-10-03 (IR)                  01/21/10
      Security of Personal Information Collected During
      HSPD-12 Background Investigations


      EXTERNAL AUDITS/REVIEWS

      Pre-Award Survey ~ Center for Independent Study                OIG-10-01 (TS)                  01/05/10


      Limited Audit Report on Gifts Certified Under Challenge        OIG-10-01 (EA)                  03/10/10
      Grant to Humanities Texas


      OVERHEAD DESK REVIEWS

      Western Reserve Historical Society                             NEH-06-05 (ODR)                 11/18/09
                                                                     Amended

      SINGLE AUDIT ACT REVIEWS

      OMB Circular A-133 Reports                                                      - See Page 6 -




NEH OIG Semiannual Report                                       3                                                  March 31, 2010
                                     AUDIT AND REVIEW ACTIVITIES 


                                           SUMMARY OF REPORTS ISSUED
                                               INTERNAL AUDITS/REVIEWS


                            FYE September 30, 2009 Consolidated Review of the Federal Managers’ 

                                               Financial Integrity Act (FMFIA) 

                                      November 4, 2009; OIG-10-01 (Internal Review) 


      We made a limited review of the evaluations conducted by NEH division directors and office heads in accor-
      dance with Office of Management and Budget, Guidelines for the Evaluation and Improvement of and Report-
      ing on Internal Control Systems in the Federal Government, and Guidelines for Evaluating Financial Manage-
      ment/Accounting Systems, for the fiscal year ended September 30, 2009.

      We made our review to determine if the evaluations appear to be reasonable and prudent. Nothing came to
      our attention indicating that the evaluations included in our review did not comply with the applicable guide-
      lines.

                                          Federal Information Security Act (FISMA) 

                                Reporting Document to the Office of Management and Budget 

                                             November 19, 2009; OIG-10-02 (IR) 


      We completed the Office of Inspector General section of the 2009 Annual FISMA Report to the Office of Man-
      agement and Budget. Agency information was submitted online via a new reporting tool used by OMB called,
      CyberScope. This report documents the OIG’s responses and comments as submitted to OMB via Cyber-
      Scope concerning the agency’s computer security.


                                                    Final Audit Report 

                                       Financial Statement Audit ~ Fiscal Year 2009 

                                       November 19, 2009; Transmittal Memorandum 


      The Office of Inspector General (OIG) engaged Leon Snead & Company, P.C., (IPA) to perform the Fiscal
      Year 2009 Financial Statement Audit as required by the Accountability of Tax Dollars Act of 2002. The OIG
      was responsible for 1) evaluating the qualifications and independence of the auditors; 2) reviewing the audit
      approach and planning; 3) monitoring the work of the auditors; 4) examining audit workpapers and reports to
      ensure compliance with Government Auditing Standards, OMB Bulletin No. 07-04, Audit Requirements for
      Federal Financial Statements, (as amended), and the Financial Audit Manual issued jointly by the Govern-
      ment Accountability Office (GAO) and the President’s Council on Integrity and Efficiency (PCIE); and 5) other
      procedures deemed necessary to oversee the contract and the audit.

      The IPA expressed an unqualified opinion on the NEH financial statements as of and for the years ended
      September 30, 2009 and 2008. The IPA’s testing of internal control identified no material weaknesses in fi-
      nancial reporting and the results of the IPA’s tests of compliance with certain provisions of laws and regula-
      tions disclosed no instances of noncompliance that are required to be reported. Other control deficiencies
      over financial reporting and its operation were noted and reported to NEH management and those charged
      with governance in a separate letter dated November 10, 2009.

      The IPA reported that the agency completed corrective action concerning the prior year finding related to the
      NEH continuity of operations plan (COOP). The finding was originally reported as a significant deficiency in
      the IPA’s report on the fiscal year 2008 financial statements.




NEH OIG Semiannual Report                                     4                                             March 31, 2010
                                  AUDIT AND REVIEW ACTIVITIES 


                       Federal Information Security Management Act Review ~ Security of Personal 

                           Information Collected During HSPD-12 Background Investigations 

                                            January 21, 2010; OIG-10-03 (IR) 


   We performed a limited review of the National Endowment for the Humanities (NEH) system for the collection of
   HSPD-12 background investigation information and how personally identifiable information (PII) collected is secured.

   The objectives of our review were to determine (1) if the NEH Office of Human Resources has a system in place to
   secure the PII collected in background investigation forms and the National Agency Check with Written Inquiry
   (NACI); and (2) that the system complies with applicable Federal law, regulations and NEH policies and procedures.
   Our review was conducted in accordance with the President’s Council on Integrity and Efficiency/Executive Council
   on Integrity and Efficiency, Quality Standards for Inspections.

   We found that a system is in place to secure PII collected during the background investigation process, however, it is
   not documented with policies and procedures. We emphasized the need for documented policies and procedures to
   ensure consistent application of controls to safeguard the security and confidentiality of HSPD-12 background investi-
   gation information, and manage the risks of unnecessary retention and unauthorized disclosure of PII. We further
   noted that the agency-wide interim policy for handling PII, as issued by the NEH Chief Privacy Officer in July 2006, is
   limited in scope and mainly addresses how NEH employees should handle PII documents to prevent loss or expo-
   sure.

   We recommended that policies and procedures be developed and documented to address the security of HSPD-12
   background investigation information, (including information documented in electronic format) and that the responsi-
   ble NEH official develop an implementation tool, (e.g., checklist) that would facilitate and document that the estab-
   lished procedures were properly executed. We further recommended that the NEH Chief Privacy Officer finalize a
   comprehensive, agency-wide policy that would address PII documented in electronic format.


                                                EXTERNAL AUDITS/REVIEWS

                                    Pre-Award Survey ~ Center for Independent Study

                                            January 5, 2010; OIG-10-01 (TS) 


   The objective of this review was to obtain information to determine the adequacy of the organization’s accounting sys-
   tem, management controls and policies and procedures designed to administer grant funds. The review determined
   that the grantee is in a position to manage and account for grant funds. In addition, we obtained assurances from the
   principals that they will abide by the terms of the award.


                                 Limited Audit Report on Gifts Certified Under Challenge 

                                               Grant to Humanities Texas

                                            March 10, 2010; OIG-10-01 (EA) 


   The principal objectives of this limited audit were to determine that 1) gifts certified by Humanities Texas (HT) are eli-
   gible to release Federal matching funds; and 2) the organization has a system in place to ensure compliance with the
   Davis-Bacon Act. Our review was conducted in accordance with Generally Accepted Government Auditing Stan-
   dards as promulgated by the Comptroller General of the United States. The scope of our review was limited to the
   gifts included in the first certification report submitted by HT for challenge grant CH-50493-08.

   In Certification Report No. 1, HT reported 233 gifts totaling $1,271,405 as eligible donations to release matching
   funds under the challenge grant. We reviewed documentation supporting 60 gifts totaling $1,250,295. Based on our
   review, we questioned the eligibility of 29 gifts totaling $352,919. Subsequent to our exit conference, the grantee
   contacted donors of the gifts questioned and requested documentation necessary to substantiate eligibility of the
   gifts. Our review of the supporting documentation submitted after our fieldwork was completed resulted in the clear-
   ance of 23 of the original 29 gifts questioned, representing a total of $327,319. Six of the original 29 gifts questioned
   remain as questioned or ineligible for a total of $25,600.

NEH OIG Semiannual Report                                      5                                             March 31, 2010
                                   AUDIT AND REVIEW ACTIVITIES 


    Our limited audit also revealed that:

    1. 	 Contributions received and certified as eligible to release Federal matching funds were not being recorded
         in the accounting system in accordance with Statement of Financial Accounting Standard (SFAS) 116, Ac-
         counting for Contributions Received and Contributions Made; and

    2. 	 HT did not have plans that would ensure compliance with all provisions of the Davis-Bacon Act.

    We made specific recommendations to address the findings noted.


                                               OVERHEAD DESK REVIEWS

    During the six-month period ended March 31, 2010, the OIG amended the results of a previous overhead desk
    review (ODR). The review was done in accordance with the PCIE/ECIE Quality Standards for Inspections. The
    results of the amended ODR were transmitted to the Assistant Chairman for Planning and Operations, who ne-
    gotiated the amended agreement with the grantee.

                                              SINGLE AUDIT ACT REVIEWS

    For the past several years, approximately 82 percent of the total NEH budget represents grant awards. Grant-
    ees expending $500,000 or more in Federal dollars per year are required to obtain an OMB Circular A-133 au-
    dit. The objective of the audit is to determine whether the recipients expend Federal funds according to appli-
    cable laws and regulations.

    During the six-month period ended March 31, 2010, we reviewed 68 OMB Circular A-133 audit reports. None
    of the reports contained findings that required reporting by the OIG to NEH management.


                                                WORK IN PROGRESS
    Limited Audit ~ Museo de Las Americas

    The principal objectives of this limited audit are to determine that (1) gifts included in the organization’s certifica-
    tion reports are eligible to release Federal matching funds; and (2) endowment expenditures are made in accor-
    dance with the terms and conditions of the budget as approved by NEH and any amendments.

    This audit was requested by the Office of Challenge Grants and the Office of Grant Management because the
    grantee did not provide final reports.

    Limited Audit ~ Wyoming Humanities Council

    The objective of this limited audit is to determine if the cost-sharing requirement applicable to NEH grant SO-
    50059-04 was satisfied and that the Council’s share of outlays, as reported to the NEH, is substantiated and
    complies with the applicable NEH guidelines.

    Limited Audit ~ Princeton Public Library Foundation

    The principal objectives of this limited audit are to determine that 1) gifts certified by the Foundation under NEH
    challenge grant CH-50522-08 are eligible to release Federal matching funds, and 2) grant expenditures are
    made in accordance with applicable provisions of NEH’s General Terms and Conditions for Awards to Organi-
    zations and the terms of the budget as approved by NEH and any amendments.




NEH OIG Semiannual Report                                       6	                                             March 31, 2010
                                  AUDIT AND REVIEW ACTIVITIES 


     Limited Audit ~ American Research Institute in Turkey

     The principal objectives of this limited audit are to determine that 1) gifts certified by the Institute under NEH
     challenge grant CH-50528-08 are eligible to release Federal matching funds, and 2) grant expenditures are
     made in accordance with applicable provisions of NEH’s General Terms and Conditions for Awards to Organi-
     zations and the terms of the budget as approved by NEH and any amendments.

     Limited Audit ~ High Museum of Art

     The principal objectives of this limited audit are to determine that 1) gifts certified by the Museum under NEH
     challenge grant CH-50491-09 are eligible to release Federal matching funds, and 2) grant expenditures are
     made in accordance with applicable provisions of NEH’s General Terms and Conditions for Awards to Organi-
     zations and the terms of the budget as approved by NEH and any amendments.

     Limited Audit ~ Colonial Williamsburg Foundation

     The principal objectives of this limited audit are to determine that 1) gifts certified by the Foundation under NEH
     challenge grants CZ-50176-08 and CH-50560-09 are eligible to release Federal matching funds, and 2) grant
     expenditures are made in accordance with applicable provisions of NEH’s General Terms and Conditions for
     Awards to Organizations and the terms of the budgets as approved by NEH and any amendments.

     Pre-Award Survey ~ The Kamusi Project USA

     The objective of this survey is to obtain information to determine the adequacy of the organization’s accounting
     system, management controls, and policies and procedures designed to administer grant funds.

     Inspection ~ NEH Grant Monitoring Function

     The objectives of this inspection are to determine 1) if there are agency-wide policies and procedures for moni-
     toring grants and if so, whether the offices and divisions responsible for the monitoring function are complying
     with those policies and procedures; 2) if the programs, Accounting Office, and the Office of Grant Management
     (OGM) have policies and procedures to monitor grants and if so, whether they are complying with those policies
     and procedures; 3) what factors are used to select awards for monitoring; and 4) what mechanism is used by
     the offices and divisions responsible for the monitoring function to assess the effectiveness and/or adequacy of
     their monitoring procedures.

     Cost Incurred Audit ~ Medieval Academy of America

     The principal objective of this audit is to determine if expenditures were in compliance with the terms and condi-
     tions of NEH grant RO-50325-08.

                                     REVIEW CLOSED WITHOUT A REPORT

     Limited Review ~ Reginald F. Lewis Museum

     The principal objectives of this limited review were to determine that (1) gifts included in the organization’s certi-
     fication reports are eligible to release Federal matching funds; and (2) endowment expenditures are made in
     accordance with the terms and conditions of the budget as approved by NEH and any amendments.

     This review was requested by the Office of Challenge Grants and the Office of Grant Management because the
     grantee did not provide final reports. Based on the results of our initial inquiries of the grantee, the Office of
     Challenge Grants rendered an opinion that the gifts, as certified by the Museum, are eligible to release Federal
     matching funds. We closed our review without a report on March 26, 2010.



NEH OIG Semiannual Report                                     7                                               March 31, 2010
                                   INVESTIGATIVE ACTIVITIES 

                                                   BACKGROUND


  The Inspector General Act provides the authority for the Office of Inspector General to investigate possible viola-
  tions of criminal or civil laws, administrative regulations, and agency policies, which relate to the programs and
  operations of the NEH. The OIG Hotline, e-mail address, and regular mail are efficient and effective means of
  receiving allegations or complaints from employees, grantees, contractors, and the general public. The OIG has
  obtained assistance from other OIGs, the Federal Bureau of Investigation, the Postal Inspection Service, and
  other investigative entities as necessary.

  When the OIG receives a complaint or allegation of a criminal or administrative violation, we make a determina-
  tion of the appropriate action to take. The result could be an audit, an investigation, a referral to another NEH
  office or division, a referral to another Federal agency, or no action.

  During the past several years, the OIG has frequently received Hotline contacts and did not have sufficient re-
  sources to complete the inquiry or investigation in a timely manner. Therefore, to alleviate this problem, we have
  been inquiring of other OIGs concerning their willingness and ability to assist us on an “as needed” basis under a
  reimbursable agreement. Several OIGs responded they would consider performing work for us on a case-by-
  case basis, depending on the availability of their staff to assist us. However, this assistance would be for crimi-
  nal cases only and we do not have any guarantee that the OIGs would have staff available.


                                             OPEN AT OCTOBER 1, 2009

  One file was open at October 1, 2009. This matter concerned an allegation against an executive director at a
  state humanities council. We determined that no criminal activity occurred. However, we strongly suggested that
  the executive director become more transparent with the full board and the staff. This file has been closed.


                       CONTACTS DURING THE SIX-MONTH PERIOD ENDED MARCH 31, 2010

  We received six Hotline contacts during the current reporting period.

  Three contacts were not applicable to NEH - we referred one to another Federal Office of Inspector General, one
  to a state attorney general, and one to a state university.

  One of the complaints concerned an applicant that did not receive a grant award. This matter was referred to the
  appropriate NEH division and was subsequently closed.

  The last matter brought to the OIG’s attention concerns a board chairman at a state humanities council. The con-
  tact alleges that the chairman’s personal opinion regarding a board member and an applicant has resulted in a
  conflict of interest. Consequently, his decisions are not always made in the best interest of the Council’s mission.
  This matter is still open.

                                             OPEN AT MARCH 31, 2010

  One matter is open as of March 31, 2010.


                             MATTERS REFERRED TO PROSECUTIVE AUTHORITIES

  We did not refer any matters to prosecutive authorities during the current reporting period.




NEH OIG Semiannual Report                                   8                                               March 31, 2010
                              INVESTIGATIVE ACTIVITIES (Continued)


                                           HOTLINE AND PREVENTION ACTIVITIES

         We maintain a toll-free Hotline phone number, an agency e-mail address, and an internet address to
         provide additional confidentiality for those persons bringing matters to the attention of the OIG. We peri-
         odically issue agency-wide e-mail messages informing NEH staff of violations that are reportable to the
         OIG. We also send e-mail messages several times during the year to inform NEH staff about the OIG
         operations. Posters advising staff to contact the OIG are displayed throughout the agency’s facilities.



                                            SUMMARY OF INVESTIGATION ACTIVITY



                                              Open at beginning of period                1



                                           Matters brought to the OIG during             6
                                                  the reporting period



                                               Total investigative contacts              7

                                         Closed, referred, or no action needed           6
                                              during the reporting period

                                                  Open at end of period                  1



                                                   INVESTIGATION MANUAL

         We have been developing an investigation manual that will meet the standards of the President’s Council
         on Integrity and Efficiency. The manual has been drafted, however, it needs to be edited since we do not
         have any criminal investigators on our staff. If we determine a case involves a crime, we will ask the Fed-
         eral Bureau of Investigations or another Federal Inspector General for assistance. We plan to have the
         manual completed and put into operation as soon as possible. Other unplanned work prevents us from
         completing this job. In addition, since the main focus of the manual is on criminal investigations, it is not a
         high priority. We do not have any series 1811 investigators on staff.




NEH OIG Semiannual Report                                     9                                                  March 31, 2010
                                               OTHER ACTIVITIES 

                                     REGULATORY AND LEGISLATIVE REVIEWS


The Inspector General Act of 1978, as amended, requires the Office of Inspector General to review proposed legisla-
tion and regulations. The reviews are to assess whether proposed legislation and/or regulations (1) affect the econ-
omy and efficiency of agency programs and operations, and (2) contain adequate internal controls to prevent and de-
tect fraud and abuse. During this period, no legislative reviews were required for NEH. However, we provide re-
sponses to the Council of Inspectors General on Integrity and Efficiency on legislation affecting the Inspector General
community.


                                           WORKING WITH THE AGENCY

OIG staff attended various NEH meetings – panel meetings (where grant applications are reviewed by outside con-
sultants), pre-council meetings (where program staff discuss panel review results with the Chairman and his immedi-
ate staff), and the National Council meetings. Also, the IG or Deputy IG attends the Chairman’s monthly policy
group meetings. The Office of Inspector General contributes to the discussions but does not participate in policy-
making.

The Office of Inspector General participated with the NEH Chairman, NEH program staff, and NEH grant manage-
ment staff in the 2009 National Humanities Conference sponsored by the Federation of State Humanities Councils.
OIG staff conducted a workshop discussing the functions of the Office of Inspector General, the OIG Hotline, and
accountability and governance matters applicable to state council organizations. The workshop was attended by
Board members, executive directors, and council personnel charged with fiscal responsibilities. The OIG also par-
ticipated in another meeting during the Conference moderated by and for council fiscal officers.

OIG staff made presentations about the NEH Office of Inspector General and the OIG Hotline during meetings held
at the NEH with grant project director’s in receipt of awards through the Seminars and Institutes program and Land-
marks of American History and Culture program. Both programs are administered by the NEH Division of Education.


                            PARTICIPATION ON THE COUNCIL OF INSPECTORS GENERAL 

                                        ON INTEGRITY AND EFFICIENCY


The Inspector General Reform Act of 2008, Public Law 110-409, amended the Inspector General Act of 1978 and
established the Council of Inspectors General on Integrity and Efficiency (CIGIE). The CIGIE is comprised of all In-
spectors General whose offices are established by the Inspector General Act of 1978, those that are Presidentially-
appointed/Senate-confirmed, and those that are appointed by agency heads (designated Federal entities). During
the six-month period ending March 31, 2010, OIG staff regularly attended CIGIE meetings and provided input. The
Inspector General is a member of the Grant Fraud Committee (a subcommittee of the National Procurement Fraud
Task Force) and participates in the Misconduct in Research meetings. The Deputy IG attends meetings of the Fed-
eral Audit Executive Council (FAEC), the monthly meetings of the Financial Statement Audit Network (a subcommit-
tee of the FAEC), and the Single Audit Roundtable. One senior auditor regularly attends the Assistant Inspector
General for Investigations (AIGI) meetings.


                                         INTRA-GOVERNMENTAL ACTIVITY

Congressional Inquiry

We received a letter from the Honorable Darrell E. Issa, Ranking Member of the United States House of Representa-
tives, Committee on Oversight and Government Reform concerning the status of open recommendations. A re-
sponse is due in April 2010.

Collaboration with the National Science Foundation ~ Office of Inspector General

OIG staff is participating in a joint investigative effort concerning a major media grantee. The joint effort involves IG
staff from three (3) Federal agencies. NSF ~ OIG is leading the investigation.

NEH OIG Semiannual Report                                    10                                                  March 31, 2010
                                       OTHER ACTIVITIES (Continued)

                                               OIG INTERNET AND INTRANET

  The OIG has posted several semiannual reports on the internet and on the NEH intranet. The reports are accessi-
  ble through the NEH homepage and the OIG homepage (http://www.neh.gov/whoweare/OIG.html).

  To advance NEH staff recognition of the OIG mission and responsibilities, we provide links to several other Fed-
  eral agencies such as the Office of Management and Budget, the Government Accountability Office, the Office of
  Government Ethics, and the IGNET.

                                                  TECHNICAL ASSISTANCE

  Throughout the reporting period, OIG staff provided technical help to NEH staff, grantees, and independent public
  accountants about various matters. Generally, these involve the implementation of the audit requirements of OMB
  Circular A-133 and indirect cost matters.


                                       “AUDIT READINESS” AWARENESS CAMPAIGN

  Throughout the year, the Office of Inspector General executes an awareness campaign via e-mail. The objective of
  the campaign is to distribute guidance that would assist recipients of NEH grants in their efforts to preclude unfavor-
  able outcomes should the organizations’ NEH grants be selected for audit. The e-mail communication emphasizes
  the importance of the recipients’ review of and adherence to the specific NEH grant terms and conditions as well as
  the laws and regulations applicable to all Federal awards. We remind recipients that they are stewards of Federal
  funds and that they must comply with the OMB Circulars and the terms and conditions of the grant award. High-
  lighted in the e-mail communications are specific areas wherein problems are commonly found during audits of NEH
  grantees and links to appropriate guidance materials and resources. We also mention the importance of effective
  internal controls and the President’s Council on Integrity and Efficiency, Report on National Single Audit Sampling
  Project. The e-mail communications are sent to project directors and grant administrators identified for non-profit
  awardees.

  During the six-month period ending March 31, 2010, e-mail communications were sent as noted below. We have
  reasonable assurance that all of the awardees received a copy of the communication.


                    NEH Office or Division                        Number of                  Number of E-mails
                                                                  Awardees                       Sent*
             Division of Preservation and Access                     85                           135
             Division of Public Programs                                 6                              10

             * There were several instances where either the project director and the grant administrator were the same
             or we did not have any contact information for an individual.




NEH OIG Semiannual Report                                        11                                                       March 31, 2010
                            PRIOR AUDIT REPORTS UNRESOLVED 



     	 Several recommendations from prior FISMA and Information Technology Security reviews remain to
         be addressed. The staff of the NEH Office of Information Resources Management is currently working
         on implementing some of the recommendations.




NEH OIG Semiannual Report                                12	                                          March 31, 2010
                                                  TABLE I


                               REPORTING REQUIREMENTS 



       The Inspector General Act of 1978, as amended (Public Law 100-504), specifies reporting
       requirements for semiannual reports. The requirements are listed and cross-referenced to the
       applicable pages in this report.


       IG Act Reference       Reporting Requirements                                          Page

       Section 4(a)(2)        Regulatory and Legislative Reviews……………………………… 10

       Section 5(a)(1)        Significant Problems, Abuses, and Deficiencies………………… *

       Section 5(a)(2)        Recommendations for Corrective Action ………………………… *

       Section 5(a)(3)        Prior Significant Recommendations Unimplemented…………… *

       Section 5(a)(4)        Matters Referred to Prosecutive Authorities……………………… 8

       Section 5(a)(5)        Instances Where Information Was Refused or Not Provided…… *

       Section 5(a)(6)        List of Reports Issued………..……………………………………… 3

       Section 5(a)(7)        Summary of Reports Issued.………………………………………. 4-6

       Section 5(a)(8)        Audit Reports - Questioned Costs….……………………………… 14

       Section 5(a)(9)        Audit Report - Funds To Be Put to Better Use.…….…………….. 14

       Section 5(a)(10)       Prior Audit Reports Unresolved…………………………………..… 12

       Section 5(a)(11)       Significant Revised Management Decisions………………………. *

       Section 5(a)(12)       Significant Management Decisions with which OIG Disagreed…. *



        * None this period




NEH OIG Semiannual Report                                 13                                          March 31, 2010
                                                        TABLE II 

                                           INSPECTOR GENERAL-ISSUED REPORTS 

                                                 WITH QUESTIONED COSTS 



                                                                               Number     Questioned      Unsupported
                                                                             Of Reports    Cost             Cost
         A. 	 For which no management decision has been made by the             -1-        $363,747         $-0-
              commencement of the reporting period.

         B. 	 Which were issued during the reporting period.                    -1-          $25,600        $-0-

                                      Subtotals (A+B) 	                         -2-        $389,347         $-0-

         C. 	 For which a management decision was made during
              the reporting period.

                  i. 	 Dollar value of disallowed costs.                         -1-*       $10,057         $ -0-

                  ii. 	 Dollar value of costs not disallowed (grantee            -1-*      $353,690         $ -0-
                        subsequently supported costs).

                  iii. 	 Dollar value of costs not disallowed based on the       -0-        $ -0-            $ -0-
                         “Value of Services Received.”

         D. 	 For which no management decision has been made by the              -1-        $25,600         $ -0-
              end of the reporting period.

         E. 	 Reports for which no management decision was made within           -0-          -0-           $ -0-
              six months of issuance.

                    * 	This data relates to a single IG report.


                                                     TABLE III 

                                        INSPECTOR GENERAL-ISSUED REPORTS 

                               WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE 



                                                                                                       Number        Dollar
                                                                                                       Of Reports    Value

         A. 	 For which no management decision has been made by the commencement                        -0-         $-0-
              of the reporting period.

         B. 	 Which were issued during the reporting period.                                            -0-         $-0-

         C. 	 For which a management decision was made during the reporting period.                      -0-        $-0-

                  i. 	Dollar value of recommendations that were agreed to by management.                            $-0-

                  ii. Dollar value of recommendations that were not agreed to by 	                                  $-0-
                      management.

         D. 	 For which no management decision was made by the end of the reporting period.              -0-        $-0-




NEH OIG Semiannual Report                                         14	                                          March 31, 2010
                            GLOSSARY OF AUDIT TERMINOLOGY

        Questioned Cost - A cost that is questioned by the OIG because of an alleged violation of a provision
        of a law, regulation, contract, grant, cooperative agreement, or other agreement or document
        governing the expenditure of funds; because such cost is not supported by adequate documentation;
        or because the expenditure of funds for the intended purpose is unnecessary or unreasonable.

        Unsupported Cost - A cost that is questioned because of the lack of adequate documentation at the
        time of the audit.

        Disallowed Cost - A questioned cost that management, in a management decision, has sustained or
        agreed should not be charged to the government.

        Funds Be Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could be
        used more efficiently by reducing outlays, de-obligating program or operational funds, avoiding
        unnecessary expenditures, or taking other efficiency measures.

        Management Decision - The evaluation by management of the audit findings and recommendations
        and the issuance of a final decision by management concerning its response to such findings and
        recommendations.

        Final Action - The completion of all management actions, as described in a management decision,
        with respect to audit findings and recommendations. When management concludes no action is
        necessary, final action occurs when a management decision is made.

        Source: Excerpt from Section 106(d) of the Inspector General Act Amendments of 1988 (P.L. 100-
        504).




NEH OIG Semiannual Report                                   15                                          March 31, 2010
